Audit Report




OIG-14-004

Audit of the United States Mint’s Schedules of
Custodial Deep Storage Gold and Silver Reserves
as of September 30, 2013 and 2012

November 26, 2013




Office of
Inspector General
Department of the Treasury
                                    DEPARTMENT OF THE TREASURY
                                          W ASHINGTON, D.C. 20220




                                           November 26, 2013
     OFFICE OF
INSPECTOR GENERAL




          MEMORANDUM FOR RICHARD A. PETERSON, DEPUTY DIRECTOR
                         UNITED STATES MINT

          FROM:                 Michael Fitzgerald
                                Director, Financial Audit

          SUBJECT:              Audit of the United States Mint’s Schedules of
                                Custodial Deep Storage Gold and Silver Reserves as of
                                September 30, 2013 and 2012

          The attached report presents the results of our audits of the United States Mint’s
          (Mint) Schedules of Custodial Deep Storage Gold and Silver Reserves as of
          September 30, 2013 and 2012 (schedules). The schedules are the responsibility of the
          Mint. We conducted our audits in accordance with U.S. generally accepted
          government auditing standards.

          We rendered an unqualified opinion on the schedules as of September 30, 2013 and
          2012. Our audits identified no material weaknesses in internal control over financial
          reporting and no instances of reportable noncompliance with laws and regulations.

          The results of our audits will be used by KPMG LLP, an independent public accounting
          firm, which is performing the audits of the Mint’s Fiscal Years 2013 and 2012
          financial statements. In addition, copies of our report are being provided to the
          Secretary of the Treasury, the Treasurer of the United States, and the Department of
          the Treasury’s Assistant Secretary for Management and Deputy Chief Financial
          Officer.

          Your staff has reviewed our report, and agreed with our conclusions. Should you have
          any questions, please contact me at (202) 927-5789, or a member of your staff may
          contact Ade Bankole, Manager, Financial Audit at (202) 927-5329.

          Attachment
Contents


SECTION I - REPORT OF THE OFFICE OF INSPECTOR GENERAL

Independent Auditor’s Report ..................................................................... 1

Report on the Schedules .................................................................................. 1

    Management’s Responsibility for the Schedules ............................................... 1

    Auditor’s Responsibility ............................................................................... 1

    Opinion      .................................................................................................. 2

Other Reporting Required by U.S. Generally Accepted Government
Auditing Standards .......................................................................................... 2

    Internal Control over Financial Reporting ......................................................... 2

    Compliance and Other Matters ...................................................................... 3

    Purpose of the Other Reporting Required by U.S. Generally Accepted Government
    Auditing Standards ..................................................................................... 4

SECTION II - UNITED STATES MINT’S SCHEDULES OF CUSTODIAL
             DEEP STORAGE GOLD AND SILVER RESERVES
             AS OF SEPTEMBER 30, 2013 AND 2012

    Schedules of Custodial Deep Storage Gold and Silver Reserves .......................... 5

    Notes to the Schedules of Custodial Deep Storage
    Gold and Silver Reserves.............................................................................. 6


APPENDICES

    Appendix 1:          Major Contributors to this Report ............................................ 8

    Appendix 2:          Report Distribution ................................................................ 9



    Audit of the United States Mint’s Schedules of Custodial Deep Storage                          Page i
    Gold and Silver Reserves as of September 30, 2013 and 2012
    (OIG-14-004)
               SECTION I -


REPORT OF THE OFFICE OF INSPECTOR GENERAL
                                                                  Report of the
OIG                                                             Office of Inspector
                                                                      General
The Department of the Treasury
Office of Inspector General



                        Independent Auditor’s Report
      To the Deputy Director of the United States Mint:

      Report on the Schedules
      We have audited the accompanying Schedules of Custodial Deep Storage Gold
      and Silver Reserves of the United States Mint (Mint) as of September 30, 2013
      and 2012 (schedules) and the related notes.

      Management’s Responsibility for the Schedules

      Management is responsible for the preparation and fair presentation of these
      schedules in accordance with U.S. generally accepted accounting principles; this
      includes the design, implementation, and maintenance of internal control
      relevant to the preparation and fair presentation of the schedules that are free
      from material misstatement, whether due to fraud or error.

      Auditor’s Responsibility

      Our responsibility is to express opinions on the schedules based on our audits.
      We conducted our audits in accordance with U.S. generally accepted
      government auditing standards. Those standards require that we plan and
      perform the audits to obtain reasonable assurance about whether the schedules
      are free from material misstatement.

      An audit involves performing procedures to obtain audit evidence about the
      amounts and disclosures in the schedules. The procedures selected depend on
      the auditor’s judgment, including the assessment of the risks of material
      misstatement of the schedules, whether due to fraud or error. In making those
      risk assessments, the auditor considers internal control relevant to the Mint’s
      preparation and fair presentation of the schedules in order to design audit
      procedures that are appropriate in the circumstances, but not for the purpose of


      Audit of the United States Mint’s Schedules of Custodial Deep Storage   Page 1
      Gold and Silver Reserves as of September 30, 2013 and 2012
      (OIG-14-004)
expressing an opinion on the effectiveness of the Mint’s internal control.
Accordingly, we express no such opinion. An audit also includes evaluating the
appropriateness of accounting policies used and the reasonableness of
significant accounting estimates made by management, as well as evaluating
the overall presentation of the schedules.

We believe that the audit evidence we have obtained is sufficient and
appropriate to provide a basis for our audit opinion.

Opinion

In our opinion, the schedules referred to above present fairly, in all material
respects, the balances of the United States’ Deep Storage Gold and Silver
Reserves in the custody of the Mint as of September 30, 2013 and 2012, in
accordance with U.S. generally accepted accounting principles.

Other Reporting Required by U.S. Generally Accepted
Government Auditing Standards

Internal Control over Financial Reporting

Internal control over financial reporting is a process, affected by those charged
with governance, management, and other personnel, the objectives of which are
to provide reasonable assurance that (1) transactions are properly recorded,
processed, and summarized to permit the preparation of the schedules in
accordance with U.S. generally accepted accounting principles, and assets are
safeguarded against loss from unauthorized acquisition, use, or disposition; and
(2) transactions are executed in accordance with laws and regulations that
could have a direct and material effect on the schedules.

In planning and performing our audits of the schedules, we considered the
Mint’s internal control over financial reporting related to the schedules as a
basis for designing audit procedures that are appropriate in the circumstances
for the purpose of expressing our opinion on the schedules, but not for the
purpose of expressing an opinion on the effectiveness of the Mint’s internal
control over financial reporting. Accordingly, we do not express an opinion on
the effectiveness of the Mint’s internal control over financial reporting.



Audit of the United States Mint’s Schedules of Custodial Deep Storage   Page 2
Gold and Silver Reserves as of September 30, 2013 and 2012
(OIG-14-004)
A deficiency in internal control exists when the design or operation of a control
does not allow management or employees, in the normal course of performing
their assigned functions, to prevent, or detect and correct, misstatements on a
timely basis. A material weakness is a deficiency, or a combination of
deficiencies, in internal control, such that there is a reasonable possibility that a
material misstatement of the schedules will not be prevented, or detected and
corrected, on a timely basis.

Our consideration of internal control over financial reporting was for the limited
purpose described in the second paragraph of this section and was not designed
to identify all deficiencies in internal control that might be material weaknesses.
Given these limitations, during our audit we did not identify any deficiencies in
internal control over financial reporting related to the schedules that we consider
to be material weaknesses. However, material weaknesses may exist that have
not been identified.

Because of inherent limitations in internal control, misstatements due to error or
fraud, losses, or noncompliance may nevertheless occur and not be detected.
We also caution that projecting our evaluation to future periods is subject to the
risk that controls may become inadequate because of changes in conditions or
that the degree of compliance with controls may deteriorate.

Compliance and Other Matters

As part of obtaining reasonable assurance about whether the schedules are free
of material misstatement, we performed tests of the Mint’s compliance with
certain provisions of laws and regulations, noncompliance with which could
have a direct and material effect on the determination of schedule amounts. We
limited our tests of compliance to those provisions and we did not test
compliance with all laws and regulations applicable to the Mint. We caution that
noncompliance may occur and not be detected by those tests. Providing an
opinion on compliance with laws and regulations was not an objective of our
audit and, accordingly, we do not express such an opinion. The results of our
tests of the Mint’s compliance with certain provisions of laws and regulations
disclosed no instances of noncompliance or other matters that would be
reportable under U.S. generally accepted government auditing standards.




Audit of the United States Mint’s Schedules of Custodial Deep Storage      Page 3
Gold and Silver Reserves as of September 30, 2013 and 2012
(OIG-14-004)
Purpose of the Other Reporting Required by U.S. Generally Accepted
Government Auditing Standards

The purpose of the communication described in the Other Reporting Required by
U.S. Generally Accepted Government Auditing Standards section is solely to
describe the scope of our testing of internal control over financial reporting and
compliance, and the result of that testing, and not to provide an opinion on the
effectiveness of the Mint’s internal control over financial reporting or on
compliance. This communication is an integral part of an audit performed in
accordance with U.S. generally accepted government auditing standards in
considering the Mint’s internal control over financial reporting and compliance.
Accordingly, this communication is not suitable for any other purpose.


                                        ******



The Mint’s Financial Department has reviewed our report and agreed with our
conclusions. Should you or your staff have any questions, you may contact me
at (202) 927-5789, or a member of your staff may contact Ade Bankole,
Manager, Financial Audit at (202) 927-5329. We appreciate the cooperation
and courtesy extended to our staff.




Michael Fitzgerald
Director, Financial Audit

Washington, D.C.
November 26, 2013




Audit of the United States Mint’s Schedules of Custodial Deep Storage   Page 4
Gold and Silver Reserves as of September 30, 2013 and 2012
(OIG-14-004)
                SECTION II -

UNITED STATES MINT’S SCHEDULES OF CUSTODIAL
   DEEP STORAGE GOLD AND SILVER RESERVES
     AS OF SEPTEMBER 30, 2013 AND 2012
                DEPARTMENT OF THE TREASURY
                     UNITED STATES MINT
SCHEDULES OF CUSTODIAL DEEP STORAGE GOLD AND SILVER RESERVES
               AS OF SEPTEMBER 30, 2013 AND 2012
                        (IN THOUSANDS)


                                                                          2013           2012__


        Deep storage gold and silver reserves (Note 2)             $10,364,687       $10,364,687

        Liability to Treasury (Note 2)                             $10,364,687       $10,364,687

Net deep storage gold and silver reserves custodial position       $             0   $        0_


The accompanying notes are an integral part of these schedules.




  Audit of the United States Mint’s Schedules of Custodial Deep Storage                        Page 5
  Gold and Silver Reserves as of September 30, 2013 and 2012
  (OIG-14-004)
                DEPARTMENT OF THE TREASURY
                     UNITED STATES MINT
NOTES TO THE SCHEDULES OF CUSTODIAL DEEP STORAGE GOLD AND
                       SILVER RESERVES
               AS OF SEPTEMBER 30, 2013 AND 2012


Note 1 Summary of Significant Accounting Policies

A.     Reporting Entity

       The United States Mint (Mint), established in 1792, is an integral part of the Department
       of the Treasury (Treasury). The mission of the Mint is to manufacture and distribute
       circulating, precious metal and collectible coins, and providing security over assets
       entrusted to us.

       In addition to manufacturing circulating coins, the Mint manufactures numismatic
       products, including medals, proof coins, uncirculated coins, bullion coins (gold and
       silver), and commemorative coins. These manufacturing operations are reported in the
       Mint’s financial statements. The Mint is also the custodian of a significant portion of the
       United States gold and silver reserves. The Mint uses the term custodial to identify gold
       and silver reserves held for Treasury. The custodial reserves are not assets of the Mint,
       but are assets of the Treasury.

       The Mint’s Public Enterprise Fund (PEF) funds all custodial activities, including the
       protection of the United States gold and silver reserves.

B.     Basis of Presentation

       These schedules have been prepared to report the deep storage gold and silver reserves
       custodial position of the Mint. The books and records of the Mint have served as the
       source of the information contained herein. These schedules have been prepared in
       accordance with accounting principles generally accepted in the United States of America
       (GAAP).

       These schedules include all gold and silver classified by the Mint as “custodial deep
       storage reserves” as defined in Note 2. Deep storage is defined as that portion of the
       Treasury-owned gold and silver bullion reserves which the Mint secures in sealed vaults.
       Deep storage gold comprises the vast majority of the reserves and consists primarily of
       gold bars. These schedules do not reflect any United States gold and silver reported by
       the Mint as working stock, or any reserve amounts due to be replenished by the PEF, nor
       do they include Treasury-owned gold held by Federal Reserve Banks (FRB). Upon
       approval from the Secretary of the Treasury, the PEF may use gold and silver from the
       custodial deep storage reserves to support its numismatic operations. The Mint did not
       use deep storage gold or silver reserves to produce coins in fiscal years 2013 and 2012.



 Audit of the United States Mint’s Schedules of Custodial Deep Storage                          Page 6
 Gold and Silver Reserves as of September 30, 2013 and 2012
 (OIG-14-004)
Note 2 Deep Storage Gold and Silver Reserves

       The gold and silver reserves reported in these schedules are exclusive of the gold and
       silver reserves considered to be working stock in the Mint’s financial records and of the
       Treasury-owned gold held by the FRB. The custodial deep storage gold and silver
       reserves included in these schedules are primarily in bar form, but may occasionally be in
       coin or other form. The custodial deep storage reserves also include foreign gold coins
       that have been held by Treasury for many years.

       The deep storage gold and silver reserves are reported in these schedules at the values
       stated in 31 U.S.C. §5116 and §5117 (statutory rates), which are $42.2222 per fine troy
       ounce (FTO) of gold and no less than $1.292929292 per FTO of silver. Accordingly, the
       Mint values the silver at $1.292929292 per FTO. An offsetting liability is also reported
       for these assets.

       At September 30, 2013 and 2012, the market values of gold per the London Gold Fixing
       (PM) were $1,326.50 per FTO and $1,776.00 per FTO, respectively. Deep storage gold
       inventories consisted of the following at September 30:

                        FTO                      Statutory Value         Market Value

       2013             245,262,897.04           $10,355,539,091         $325,341,232,924

       2012             245,262,897.04           $10,355,539,091         $435,586,905,143

       At September 30, 2013 and 2012, the market values of silver per the London Silver
       Fixing were $21.68 per FTO and $34.65 per FTO, respectively. Deep storage silver
       inventories consisted of the following at September 30:

                        FTO                      Statutory Value         Market Value

       2013             7,075,171.14             $ 9,147,696             $153,389,710

       2012             7,075,171.14             $ 9,147,696             $245,154,680


       The combined custodial deep storage gold and silver reserves consisted of the following
       at September 30:

                                                 Statutory Value         Market Value

       2013                                      $10,364,686,787         $325,494,622,634

       2012                                      $10,364,686,787         $435,832,059,823




 Audit of the United States Mint’s Schedules of Custodial Deep Storage                         Page 7
 Gold and Silver Reserves as of September 30, 2013 and 2012
 (OIG-14-004)
APPENDICES
  Appendix 1
  Major Contributors to this Report




  Financial Audit Division

           Michael Fitzgerald, Director
           Ade Bankole, Manager
           Rafael Cumba, Auditor-in-Charge
           Rufus Etienne, Auditor
           Robert Hong, Auditor
           Kevin Guishard, Referencer




Audit of the United States Mint’s Schedules of Custodial Deep Storage   Page 8
Gold and Silver Reserves as of September 30, 2013 and 2012
(OIG-14-004)
        Appendix 2
        Report Distribution




        The Department of the Treasury

                Secretary of the Treasury
                Treasurer of the United States
                Assistant Secretary for Management
                Deputy Chief Financial Officer
                Director, Financial Reporting and Policy

        United States Mint

                Chief Financial Officer

        Independent Public Accountant

                KPMG LLP




Audit of the United States Mint’s Schedules of Custodial Deep Storage   Page 9
Gold and Silver Reserves as of September 30, 2013 and 2012
(OIG-14-004)
